              The Wage and Investment Division Does Not
              Have a Reliable System for Identifying Trends
                  Related to Automated Underreporter
                         Reconsideration Cases

                                  December 2003

                       Reference Number: 2004-40-028




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     December 30, 2003


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                          Gordon C. Milbourn III
                                      Acting Deputy Inspector General for Audit

       SUBJECT:                       Final Audit Report - The Wage and Investment Division
                                      Does Not Have a Reliable System for Identifying Trends
                                      Related to Automated Underreporter Reconsideration Cases
                                      (Audit # 200340032)


       This report presents the results of our review of Automated Underreporter (AUR)
       Reconsideration Cases. The overall objective of this review was to determine whether
       Internal Revenue Service (IRS) efforts have successfully reduced the number of
       subsequent AUR abatements related to Wage and Investment (W&I) Division
       taxpayers.
       We conducted this review as a follow-up to our prior audit report1 and as part of the
       Treasury Inspector General for Tax Administration’s Fiscal Year (FY) 2003 discretionary
       audit coverage. In FY 2002, the IRS received over 130 million individual income tax
       returns and over 1.4 billion information returns. The IRS’ AUR Program is part of the
       Information Reporting Program.
       The IRS’ AUR Program is an automated system that attempts to match taxpayer
       income and deduction information submitted by third parties2 to amounts reported on
       individual income tax returns. The IRS attempts to reconcile any discrepancies by
       corresponding with taxpayers. If the taxpayers agree with the third-party information or
       do not provide any additional information to resolve the discrepancies, the taxpayers are
       assessed additional tax and their AUR cases3 are closed. Taxpayers sometimes


       1
         Audit Reconsideration Cases Create Unnecessary Burden on Taxpayers and the Internal Revenue Service
       (Reference Number 2001-40-053, dated March 2001).
       2
         Third parties such as banks, brokerage firms, employers, and others are required to file information returns to
       report income and certain deductions to the IRS.
       3
         An AUR case is a tax return that has been identified with one or more potential underreporter discrepancies.
                                            2

respond to the IRS after their AUR cases are closed, asking the IRS to reevaluate, or
“reconsider,” the AUR assessments. In our prior review, we determined that the IRS did
not have an adequate system in place to measure the total volume of reconsideration
cases to enable it to determine relative causes and develop corrective actions to reduce
the total volume of future reconsideration cases. The IRS agreed and stated that it
would develop and issue a monthly report to provide data from reconsideration cases
worked by the various functions in the IRS.
Neither we nor the IRS can determine if the IRS has reduced the number of subsequent
AUR abatements related to W&I Division taxpayers because the IRS still does not have
a reliable reporting system that will effectively account for the total population of
AUR reconsideration cases. The Reconsideration Management Information System
(MIS) Report developed in response to our prior audit report does not sufficiently or
accurately capture the information available from the reconsideration process. Without
this information, the W&I Division Compliance function cannot perform valid analyses to
develop and implement effective corrective actions to reduce the number of AUR
reconsideration cases.
We recommended that the W&I Division Commissioner ensure that the Reconsideration
MIS Report captures the correct W&I Division AUR Program information. In addition,
the W&I Division Commissioner should also ensure that the Compliance function
coordinates with the IRS’ Office of Revenue Analysis (ORA) to determine if the
Reconsideration MIS Report can be modified to provide sufficient information to enable
the W&I Division AUR Program to identify specific causes or trends and to develop
effective corrective actions. If the Reconsideration MIS Report cannot be modified, then
the W&I Division Compliance function needs to identify both a reliable method of
tracking and counting AUR reconsideration case closures and what additional
information is needed to perform valid trend analyses for identifying specific causes and
developing effective corrective remedies.
Management’s Response: IRS management agreed with our recommendations and will
implement corrective actions. IRS management will ensure that AUR employees use
the correct reason codes on reconsideration cases as a means towards obtaining
correct Reconsideration MIS Reports. The IRS will do this by including reviews of
closed reconsideration cases during FY 2004 site reviews at W&I Division AUR
campuses and by ensuring that reporting and closing procedures are stated clearly.
The IRS will develop quality review requirements for reconsideration casework for the
Quality function. The IRS will also ensure that training materials are updated and that
the training sessions are scheduled and conducted.
                                                      3

In addition, the IRS will work with the ORA to capture information on those cases from
other Business Operating Divisions (BOD)4 worked by the W&I Division AUR Program,
eliminate the tentative allowance adjustment cases, and capture the W&I Division AUR
reconsideration abatements processed by other IRS functions.
Lastly, management will work with the ORA to determine if the Reconsideration MIS
Report can be modified to capture the recommended information. If the existing
Reconsideration MIS Report cannot be modified to include the necessary information to
identify trends and develop corrective actions, the IRS will explore other systemic
methods to capture this information.
IRS management agreed with our outcome measure relative to Reliability of
Information. However, they could not concur with the measure on Inefficient Use of
Resources without conducting some analysis related to the measure. Management’s
complete response to the draft report is included as Appendix VIII.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions,
or Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment
Income Programs), at (202) 927-0597.




4
 IRS operations are segregated and directed by four BODs known as the Large and Mid-Size Business, Small
Business/Self-Employed, Tax Exempt and Government Entities, and W&I Divisions.
          The Wage and Investment Division Does Not Have a Reliable System for
       Identifying Trends Related to Automated Underreporter Reconsideration Cases




                                                  Table of Contents


Background ................................................................................................ Page 1
More Information Is Needed to Determine Whether the Wage
and Investment Division Has Successfully Reduced the Number
of Reconsideration Cases ......................................................................... Page 4
         Recommendation 1: ...................................................................... Page 10
         Recommendation 2: ...................................................................... Page 11

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 12
Appendix II – Major Contributors to This Report........................................ Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Outcome Measures ............................................................ Page 16
Appendix V – Comparison of Automated Underreporter
             Assessments and Reconsideration Adjustments ................ Page 18
Appendix VI – Automated Underreporter Cases That Resulted in a
              Reconsideration Abatement by Category Code.................. Page 19
Appendix VII – Automated Underreporter Cases That Resulted in a
               Reconsideration Abatement by Process Code .................. Page 20
Appendix VIII – Management’s Response to the Draft Report .................. Page 21
         The Wage and Investment Division Does Not Have a Reliable System for
      Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                 The Internal Revenue Service’s (IRS) Information
Background
                                 Reporting Program is the cornerstone of voluntary
                                 compliance and affects compliance and revenue across
                                 every taxpayer and market segment. The Information
                                 Reporting Program helps ensure a high level of compliance
                                 by requiring third parties such as banks, brokerage firms,
                                 employers, and others to file information returns to report
                                 income and certain deductions to the IRS.1 In Fiscal Year
                                 (FY) 2002, the IRS received over 130 million individual
                                 income tax returns and over 1.4 billion information returns.
                                 The IRS’ Automated Underreporter (AUR) Program is part
                                 of the Information Reporting Program. The AUR Program
                                 is an automated system that attempts to match taxpayer
                                 income and deduction information submitted by third
                                 parties to amounts reported on individual income tax
                                 returns. The IRS attempts to reconcile any discrepancies by
                                 corresponding with taxpayers. If the taxpayers agree with
                                 the third-party information or do not provide any additional
                                 information to resolve the discrepancies, the taxpayers are
                                 assessed additional tax and their AUR case2 is closed. This
                                 process is not considered an examination of the tax return.
                                 Taxpayers sometimes respond to the IRS after their AUR
                                 case is closed, asking the IRS to reevaluate, or “reconsider,”
                                 the AUR assessment. This becomes an AUR
                                 reconsideration case. The IRS has discretionary authority
                                 under Internal Revenue Code Section 6404(a)3 to abate any
                                 unpaid portion of tax that is determined to be excessive.
                                 Under this authority, the IRS provides the taxpayer the
                                 opportunity to present information previously not
                                 considered. The IRS considers the additional information
                                 provided and makes one of the following determinations:

                                 1
                                   Information returns are submitted by third parties to report certain
                                 business transactions to the IRS (e.g., the amount of payments made to
                                 and from individuals such as dividends, interest, sales of certain assets,
                                 and wages). The information is reported to the IRS on various forms
                                 such as the Form 1099 series (for various incomes such as Dividend,
                                 Interest, Miscellaneous, etc.) and the Wage and Tax Statement
                                 (Form W-2).
                                 2
                                   An AUR case is a tax return that has been identified with one or more
                                 potential underreporter discrepancies.
                                 3
                                   Internal Revenue Code Section 6404(a) (1954).
                                                                                                    Page 1
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                           •   The taxpayer is entitled to a full or partial abatement of
                               the prior assessment.
                           •   The taxpayer is not entitled to a full or partial abatement
                               of the prior assessment and the reconsideration request
                               is disallowed in full.
                           •   The taxpayer needs to provide additional information.
                           In addition to reconsideration requests, the IRS resolves
                           other post-AUR inquiries, which are referred to as quick
                           closures. Normally, these closures are related to taxpayer
                           inquiries where the IRS only provides an explanation for the
                           basis of the original AUR assessment. The IRS does not
                           consider these closures as true reconsiderations and does not
                           track them.
                           The AUR Program is administered by the Compliance
                           functions in the Small Business/Self-Employed (SB/SE) and
                           Wage and Investment (W&I) Divisions, and operates in six
                           IRS campuses.4 The W&I Division campuses are located in
                           Atlanta, Georgia; Austin, Texas; and Fresno, California.
                           The W&I Division’s AUR sites work about 55 percent of
                           the approximately 3 million AUR cases in inventory.
                           During FYs 2000, 2001, and 2002, the W&I Division AUR
                           Program closed from 1.2 million to 1.6 million cases and
                           assessed from $1 billion to $1.4 billion each year.
                           An analysis of the IRS’ main computer system identified
                           91,428 W&I Division AUR reconsideration cases processed
                           during FYs 2000, 2001, and 2002. The chart on the next
                           page shows the number of AUR reconsideration case
                           abatements and the fiscal years in which they were
                           processed.




                           4
                            The campuses are the data processing arm of the IRS. The campuses
                           process paper and electronic submissions, correct errors, and forward
                           data to the computing centers for analysis and posting to taxpayer
                           accounts.
                                                                                          Page 2
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                      Automated Underreporter Reconsideration Abatements

                                                                Fiscal Year
                                 Abatement Type         2000       2001       2002     Totals

                               Full                    13,478     22,264      21,841   57,583
                               Partial                  9,274     12,043      12,528   33,845
                               Totals                  22,752     34,307      34,369   91,428
                           Source: Extracts from the Internal Revenue Service’s main computer
                           system.

                           Based on an AUR database provided by the W&I Division
                           Compliance function for Tax Year (TY) 1999 tax returns,
                           the W&I Division AUR Program selected 1,591,093 cases
                           for review. As of December 2002, 912,331 of these AUR
                           cases had resulted in a net adjustment to tax of $1.36 billion.
                           The IRS subsequently abated $63.82 million after working
                           reconsiderations on 26,207 of these AUR cases. These
                           abatements represent 2.9 percent of the total number of
                           AUR cases with adjustments and 4.7 percent of the total net
                           tax dollars adjusted on AUR cases processed by the W&I
                           Division AUR Program in TY 1999. Further details of the
                           TY 1999 data are presented in Appendices V, VI, and VII.
                           In March 2001, we issued an audit report5 stating that the
                           IRS did not have an adequate system in place to measure the
                           total volume of reconsideration cases. We recommended
                           the IRS improve its management information reports, track
                           reconsideration cases to determine relative causes, and
                           develop corrective actions to reduce the total volume of
                           future reconsideration cases. A reduction in the volume of
                           reconsideration cases would eliminate unnecessary taxpayer
                           burden, as well as free up valuable resources that could be
                           redirected to other compliance work.
                           The IRS agreed to our recommendations and stated that it
                           would develop and issue a monthly report to provide data
                           from reconsideration cases worked by the various functions
                           in the IRS. Each of the functions would be responsible for


                           5
                            Audit Reconsideration Cases Create Unnecessary Burden on
                           Taxpayers and the Internal Revenue Service (Reference
                           Number 2001-40-053, dated March 2001).
                                                                                        Page 3
           The Wage and Investment Division Does Not Have a Reliable System for
        Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                   reviewing this report to identify trends, including the causes
                                   of reconsideration cases, and for developing corrective
                                   actions to reduce the total volume of future reconsideration
                                   cases.
                                   We limited this follow-up review to those reconsideration
                                   cases resulting from the W&I Division AUR Program. We
                                   conducted our fieldwork from April to September 2003 in
                                   the W&I Division AUR Program in Atlanta, Georgia, and
                                   the IRS National Headquarters in Washington, D.C. We
                                   also conducted telephone interviews with functional
                                   personnel in the AUR campuses in Atlanta, Georgia; Austin,
                                   Texas; and Fresno, California. This audit was conducted in
                                   accordance with Government Auditing Standards. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   Neither we nor the IRS can determine if the IRS has reduced
More Information Is Needed to
                                   the number of subsequent AUR abatements related to
Determine Whether the Wage
                                   W&I Division taxpayers because the Reconsideration
and Investment Division Has
                                   Management Information System (MIS) Report that the
Successfully Reduced the Number
                                   IRS developed in response to our prior audit report does not
of Reconsideration Cases
                                   sufficiently or accurately capture the information available
                                   from the reconsideration process. Without an adequate
                                   management information and reporting system, the IRS
                                   cannot track these cases, determine their causes, or
                                   implement measurable corrective actions that will reduce
                                   their number and ultimately decrease taxpayer burden.
                                   The Reconsideration MIS Report has not provided the
                                   expected results for the following reasons:
                                   •   The Reconsideration MIS Report was not completed
                                       on schedule.
                                       In response to our prior audit report, the IRS’ Office of
                                       Revenue Analysis (ORA) planned to modify a prototype
                                       of the Reconsideration MIS Report that was under
                                       development and issue it by March 2001. The ORA
                                       worked in partnership with the W&I Division during
                                       this modification process. However, due to data
                                       anomalies and limited personnel resources, the
                                       FY 2001 Reconsideration MIS Report was delayed

                                                                                          Page 4
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                               until May 2003. As a result, the W&I Division
                               Compliance function has only recently begun to perform
                               any trend analyses.
                           •   The Reconsideration MIS Report does not include the
                               necessary information for trend analyses.
                               The FY 2001 Reconsideration MIS Report provides
                               very limited information on AUR reconsideration case
                               activities. Although the Reconsideration MIS Report
                               separates information into four distinct categories
                               (i.e., full allowance, partial allowance, full disallowance,
                               and no response by the taxpayer), it does not include any
                               case-related or account information, such as the Social
                               Security Numbers, or information specific to the AUR
                               Program, such as the process6 or category7 codes. This
                               information is essential for the W&I Division AUR
                               Program to direct and perform effective cause and trend
                               analyses.
                               As a result, the W&I Division Compliance function had
                               to request the Reconsideration MIS Report’s supporting
                               data from the ORA. Even with this information, it will
                               be necessary for the Compliance function to match these
                               data to other IRS databases (e.g., the AUR database and
                               the Individual Master File (IMF)8) so that effective trend
                               analyses can be done. Without this case-specific
                               information, the Reconsideration MIS Report by itself is
                               useless in determining causes or taxpayer trends.
                           •   The Reconsideration MIS Report does not accurately
                               capture the total volume of W&I Division AUR
                               reconsideration cases.
                               The accuracy of the Reconsideration MIS Report is
                               dependent upon IRS employees using a reason code.
                               AUR employees use reason codes to identify tax

                           6
                             The Process Code designates the status of the AUR case, which
                           includes the various closing actions.
                           7
                             The Category Code designates the AUR mismatch situation or the
                           reason the case was selected for resolution (e.g., wages or non-employee
                           compensation).
                           8
                             The IRS database that maintains transactions or records of individual
                           tax accounts.
                                                                                           Page 5
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                               adjustments related to AUR reconsideration closures.
                               Reason codes explain the type of reconsideration
                               closure, such as a full allowance, partial allowance, full
                               disallowance, or no taxpayer response to a request for
                               additional information. IRS employees do not always
                               input the reason codes into the computer system and,
                               therefore, the codes are not included in the account
                               information.
                               When reason codes are not included in the account
                               information, the computer defaults to an analysis to
                               identify those accounts with adjustments made after the
                               original AUR assessments. These accounts are included
                               in the Reconsideration MIS Report, although the
                               adjustments or abatements may not be related to the
                               AUR reconsideration assessment.
                               However, our analysis of account data extracted from
                               the IMF showed that the W&I Division AUR Program
                               closed a total of 34,307 cases in FY 2001 with either a
                               full or partial abatement of the original AUR
                               assessment. The Reconsideration MIS Report for the
                               same period showed 14,592 reconsideration case
                               closures for the W&I Division AUR Program, which
                               indicates that not all full or partial abatements were
                               captured.
                           •   The Reconsideration MIS Report does not accurately
                               capture the total volume of W&I Division AUR
                               nonadjustment reconsideration closures.
                               Generally, W&I Division AUR Program employees
                               close nonadjustment reconsideration cases (i.e., those
                               cases where the IRS does not adjust the original AUR
                               assessment) with a letter to the taxpayer but rarely input
                               the related reason code to the IRS’ computer system.
                               There is no account analysis process to identify these
                               closures for inclusion in the Reconsideration MIS
                               Report.
                               For FY 2001, the W&I Division reported a total of
                               88,586 adjustment and nonadjustment post-AUR case
                               closures. This number also includes quick closures,
                               which are not considered true AUR reconsideration

                                                                                   Page 6
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                               cases. Since the IRS does not consistently track
                               nonadjustment reconsideration closures, there is
                               currently no way to segregate these quick closures
                               from the true nonadjustment reconsideration cases.
                               Deducting the 34,307 adjustment closures identified in
                               our IMF analysis from the total of 88,586 adjustment
                               and nonadjustment post-AUR case closures resulted in
                               potentially 54,279 cases related to nonadjustment
                               reconsideration closures during FY 2001. The
                               Reconsideration MIS Report for the same period
                               showed a total of 21 nonadjustment closures, which
                               indicates a significant number of these cases may have
                               been omitted.
                           •   The Reconsideration MIS Report incorrectly categorizes
                               W&I Division AUR reconsideration closures.
                               The IMF determines the Business Operating Division
                               (BOD) Code9 based on the type of tax returns and
                               related schedules filed by the taxpayers. W&I Division
                               individual taxpayers file tax returns and related
                               schedules used to report income from sources such as
                               wages and investments. SB/SE Division individual
                               taxpayers file tax returns and related schedules used to
                               report income from sources such as self-employment,
                               farming, and partnerships.
                               The FY 2001 Reconsideration MIS Report uses the
                               current BOD designation to categorize the AUR
                               reconsideration closures between W&I and SB/SE
                               Division taxpayers. However, the BOD code is not the
                               determining factor of whether an AUR case is selected
                               for the W&I Division or SB/SE Division AUR Program
                               inventory. For example, if a taxpayer with a SB/SE
                               Division designation reports wage income on his or her
                               tax return and the amount does not match IRS records,
                               then the case would be selected and included in the W&I
                               Division AUR Program inventory, regardless of the
                               current BOD designation.

                           9
                            IRS operations are segregated and directed by four BODs known as the
                           Large and Mid-Size Business, SB/SE, Tax Exempt and Government
                           Entities, and W&I Divisions.
                                                                                        Page 7
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                           •    The Reconsideration MIS Report includes tax
                                adjustments that are not related to AUR reconsideration
                                abatements.
                                Based on its current criteria, the FY 2001
                                Reconsideration MIS Report includes certain taxpayer
                                accounts that are not related to reconsideration
                                abatements. The Reconsideration MIS Report criterion
                                for capturing subsequent adjustments does not
                                differentiate between tentative allowance adjustments
                                and AUR reconsideration adjustments. A tentative
                                allowance is an adjustment to the tax on a particular tax
                                year that is based on issues related to a different tax
                                year, such as a current tax year net operating loss
                                applied to prior tax year earnings. As a result, the
                                Reconsideration MIS Report included 510 tentative
                                allowance adjustments, which are not AUR
                                reconsideration adjustments.
                           •    The Reconsideration MIS Report excludes W&I Division
                                AUR reconsideration abatements that were processed by
                                another IRS function.
                                The FY 2001 Reconsideration MIS Report excluded
                                219 W&I Division AUR reconsideration cases where the
                                W&I Division AUR Program processed the original
                                assessments and the subsequent abatements were
                                processed by another IRS function. None of these cases
                                are included in the Reconsideration MIS Report because
                                the criterion does not recognize AUR assessments
                                abated by another IRS function.
                           The Standards for Internal Control in the Federal
                           Government10 state that for an entity to run and control its
                           operations, it must have relevant, reliable, and timely
                           communications and information.
                           The Reconsideration MIS Report was supposed to serve as
                           the primary information source of all AUR reconsideration
                           case closures. If the W&I Division AUR Program cannot
                           rely on the accuracy of the Reconsideration MIS Report, it

                           10
                             Standards for Internal Control in the Federal Government
                           (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                        Page 8
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                           cannot perform valid and reliable analyses to identify
                           specific causes or case trends or develop effective corrective
                           actions.
                           Reconsideration cases create an unnecessary burden on the
                           IRS when its employees work them because it must redirect
                           its compliance resources away from current compliance
                           work. Based on the 91,428 total W&I Division AUR
                           reconsideration case closures with adjustments identified for
                           FYs 2000, 2001, and 2002, and using IRS-computed
                           production rates and associated costs for each respective
                           fiscal year, the W&I Division AUR Program expended an
                           estimated 38,652 staff hours at a cost of $670,872.
                           Although neither the IRS nor we are able to specifically
                           determine the total number of nonadjustment W&I Division
                           AUR reconsideration closures through an analysis of the
                           IMF, there were potentially 195,399 W&I Division AUR
                           nonadjustment closures, which included quick closures, for
                           FYs 2000, 2001, and 2002.
                           The IRS is burdened when taxpayers fail to respond to its
                           initial requests for information to resolve discrepancies
                           during the processing of the original AUR case and/or when
                           taxpayers request an AUR reconsideration but do not
                           respond to the IRS’ requests for additional information. The
                           National Taxpayer Advocate reports11 that, “A variety of
                           reasons have been put forth as to why taxpayers do not
                           respond in EITC [Earned Income Tax Credit]
                           examinations.” These same reasons (such as language and
                           literacy barriers, nonreceipt of notices, lack of time or
                           resources to gather documentation, feelings of intimidation,
                           etc.) could apply to IRS inquiries on AUR cases. The IRS
                           does not know why taxpayers do not respond to the initial
                           AUR inquiries.
                           The Reconsideration MIS Report should allow the IRS to
                           analyze AUR reconsideration cases to identify AUR case
                           trends. Further actions will be required to identify the
                           specific reasons why some taxpayers do not respond during
                           the initial processing of their AUR case and to develop and


                           11
                                National Taxpayer Advocate Fiscal Year 2002 Report to Congress.
                                                                                          Page 9
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                           monitor education/outreach programs to help these
                           taxpayers. The expectation is that these efforts should
                           eventually result in a decrease in the number of AUR
                           reconsideration cases processed by the IRS each year.

                           Recommendations

                           The Commissioner, W&I Division, should:
                           1. Ensure that the Reconsideration MIS Report captures the
                              correct W&I Division AUR Program information. This
                              would include:
                              •   Ensuring W&I Division AUR employees follow
                                  existing case closing procedures by using the
                                  appropriate reason codes.
                              •   Working with the ORA to capture information on
                                  those cases from the other BODs worked by the
                                  W&I Division AUR Program, eliminate the tentative
                                  allowance adjustment cases, and capture the W&I
                                  Division AUR reconsideration abatements processed
                                  by other IRS functions.
                           Management’s Response: The IRS will ensure that AUR
                           employees use the correct reason codes on reconsideration
                           cases as a means towards obtaining correct Reconsideration
                           MIS Reports. The IRS will do this by including reviews of
                           closed reconsideration cases during FY 2004 site reviews at
                           W&I Division AUR campuses and by ensuring that
                           reporting and closing procedures are stated clearly. The IRS
                           will develop quality review requirements for reconsideration
                           casework for the Quality function. The IRS will also ensure
                           training materials are updated and that the training sessions
                           are scheduled and conducted.
                           In addition, the IRS will work with the ORA to capture
                           information on those cases from other BODs worked by the
                           W&I Division AUR Program, eliminate the tentative
                           allowance adjustment cases, and capture the W&I Division
                           AUR reconsideration abatements processed by other IRS
                           functions.



                                                                                Page 10
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                           2. Ensure that the W&I Division Compliance function
                              coordinates with the ORA to determine if the
                              Reconsideration MIS Report can be modified to provide
                              sufficient information to enable the W&I Division AUR
                              Program to identify specific causes or trends and to
                              develop effective corrective actions. If the
                              Reconsideration MIS Report cannot be modified, then
                              the W&I Division Compliance function needs to
                              identify a reliable method of tracking and counting AUR
                              reconsideration case closures and identify what
                              additional information is needed to perform valid trend
                              analyses for identifying specific causes and developing
                              effective corrective remedies.
                           Management’s Response: The IRS will work with the ORA
                           to determine if the Reconsideration MIS Report can be
                           modified to capture the recommended information. If the
                           existing report cannot be modified to include the necessary
                           information to identify trends and develop corrective
                           actions, the IRS will explore other systemic methods to
                           capture this information.




                                                                              Page 11
        The Wage and Investment Division Does Not Have a Reliable System for
     Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                                     Appendix I


                      Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether Internal Revenue Service (IRS) efforts have
successfully reduced the number of subsequent Automated Underreporter (AUR) abatements
related to Wage and Investment (W&I) Division taxpayers. To accomplish this objective, we
performed the following tests:
I. Determined the progress of efforts on the Reconsideration Management Information
   System (MIS) Report and whether it provided the information W&I Division Compliance
   function management needed to identify trends and causes of AUR reconsideration cases and
   develop and monitor corrective actions to reduce the total volume of future reconsideration
   cases.
   A. Interviewed W&I Division Compliance function management to determine the status and
      expected purpose of the Reconsideration MIS Report, the information available for
      performing reconsideration trend analyses, and the input they provided in the
      development of the Reconsideration MIS Report.
   B. Interviewed Office of Revenue Analysis (ORA) management to determine the:
       1. Status, composition, frequency, and expected purpose and scope of the
          Reconsideration MIS Report.
       2. Input W&I Division Compliance function management provided and how the ORA
          kept them informed of the Reconsideration MIS Report’s development.
   C. Analyzed the Fiscal Year (FY) 2001 Reconsideration MIS Report to determine whether
      it:
       1. Provided the information needed to identify trends and develop and monitor
          corrective actions needed to reduce the total volume of future AUR reconsideration
          cases.
       2. Included the total volume of AUR reconsideration cases and provided sufficient
          information to identify related account characteristics to determine the causes of the
          AUR reconsideration.
II. Identified and analyzed the population of AUR assessments with subsequent full or partial
    abatements occurring in FYs 2000, 2001, and 2002 for trends and account characteristics.
   A. Secured a download of selected information from the Tax Year (TY) 1999 and 2000
      W&I Division AUR databases. We used this download information to identify the W&I
      Division AUR inventory of taxpayer accounts selected for resolution for those tax years.

                                                                                          Page 12
         The Wage and Investment Division Does Not Have a Reliable System for
      Identifying Trends Related to Automated Underreporter Reconsideration Cases

    B. Requested an Individual Master File (IMF)1 extract through the Treasury Inspector
       General for Tax Administration’s (TIGTA) Data Center Warehouse (DCW)2 to secure a
       download of all IMF accounts that contained an Information Returns Processing
       indicator.
    C. Matched taxpayer accounts for TYs 1999 and 2000 identified in Sub-Objective II.A.
       against the IMF transactions secured in Sub-Objective II.B. We identified the accounts
       that had an AUR assessment and an abatement posting subsequent to the AUR
       assessment and during FYs 2000, 2001, or 2002.
    D. Selected taxpayer accounts for TYs 1997 and 1998 and earlier with a W&I Division
       Business Operating Division (BOD) Code3 designation. From that population, we
       identified the accounts that had an AUR assessment and an abatement posting subsequent
       to the AUR assessment and during FYs 2000, 2001, or 2002.
    E. Selected 271 accounts from the raw data provided by the TIGTA DCW, and used
       the Integrated Data Retrieval System4 to validate that each account met our criteria
       (i.e., where an account with an AUR assessment had a subsequent adjustment). In
       addition, we used this validation process to identify any data anomalies (i.e., where the
       criteria were met but the accounts were not reconsideration case closures).
    F. Performed a separate analysis of TY 1999 AUR data provided by W&I Division
       Compliance function management to determine the total population of W&I Division
       AUR cases identified for resolution, the number of W&I Division AUR cases resulting in
       an adjustment to tax, and the total number of those adjustment cases that resulted in a full
       or partial abatement of the original W&I Division AUR tax adjustment.
III. Estimated the affect of processing AUR reconsideration cases using the populations
     determined in Sub-Objective II.
    A. Determined the number of taxpayer accounts excluded from the FY 2001
       Reconsideration MIS Report where an original AUR adjustment was subsequently abated
       in part or full.
    B. Determined the related cost of abating prior AUR assessments by using the cost data
       compiled by the IRS for the specific production program used for processing AUR
       reconsideration cases and applying that cost to the number of taxpayers receiving a full or
       partial abatement of the original AUR assessment in FYs 2000, 2001, or 2002.

1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  The DCW consists of data used by the TIGTA in audits, investigations, integrity projects, and administrative
requirements.
3
  IRS operations are segregated and directed by four BODs known as the Large and Mid-Size Business, Small
Business/Self-Employed, Tax Exempt and Government Entities, and W&I Divisions.
4
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                          Page 13
       The Wage and Investment Division Does Not Have a Reliable System for
    Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Bryce Kisler, Audit Manager
David Hartman, Senior Auditor
Alan Lund, Senior Auditor
Julia Tai, Senior Auditor
Jim Traynor, Senior Auditor
Karen Fulte, Auditor
Layne Powell, Information Technology Specialist
Jeffrey Williams, Information Technology Specialist




                                                                                         Page 14
       The Wage and Investment Division Does Not Have a Reliable System for
    Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                       Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance SE:W:CP
Director, Office of Research, Analysis, and Statistics RAS
Director, Strategy and Finance SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison SE:W:S:PA




                                                                             Page 15
         The Wage and Investment Division Does Not Have a Reliable System for
      Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                                                     Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Reliability of Information – Actual; 20,225 taxpayer accounts not included in the Fiscal Year
    (FY) 2001 Reconsideration Management Information System Report where an original
    Automated Underreporter assessment was subsequently abated in part or full (see page 4).
Methodology Used to Measure the Reported Benefit:
We analyzed an extract from the Internal Revenue Service’s (IRS) Individual Master File (IMF)1
and identified 34,307 taxpayer accounts where an Automated Underreporter (AUR) assessment
was subsequently abated in FY 2001. We analyzed the FY 2001 Reconsideration MIS Report
and determined a total of 14,592 taxpayer accounts were included as closed with a partial or full
abatement of the original AUR assessment. We compared the Reconsideration MIS Report’s
related supporting information with an IMF extract of taxpayer accounts with an AUR
assessment followed by a tentative allowance adjustment in FY 2001. We determined a total of
510 tentative allowances, which are not related to reconsideration abatements, were incorrectly
included in the Reconsideration MIS Report. We deducted the 510 tentative allowance
adjustments from the 14,592 total adjustments to determine the Reconsideration MIS Report
accounted for 14,082 true reconsideration adjustments. The difference between these
adjustments and the 34,307 identified in our IMF analysis represents an understatement of
20,225 adjustment cases that should have been included in the Reconsideration MIS Report.
Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; approximately $670,872 expended2 during
    FYs 2000, 2001, and 2002 to process 91,428 full or partial abatements for accounts that
    could have been resolved during the original AUR resolution process (see page 4).3




1
  The IRS database that maintains transactions or records of individual tax accounts.
2
  Neither the IRS nor we can calculate the additional cost (if any) that these cases would have caused if the taxpayers
had responded during the initial AUR inquiry. This figure does not take into consideration that cost. As a result,
this figure may be overstated.
3
  The numbers following this paragraph, which support these totals, may not equal these totals due to rounding.
                                                                                                             Page 16
        The Wage and Investment Division Does Not Have a Reliable System for
     Identifying Trends Related to Automated Underreporter Reconsideration Cases

Methodology Used to Measure the Reported Benefit:
We analyzed an extract from the IMF for any AUR assessment subsequently abated in FYs 2000,
2001, or 2002. We determined that 22,752 reconsideration abatements posted in FY 2000,
34,307 posted in FY 2001, and 34,369 posted in FY 2002. We used the IRS’ production figures
cost index amounts to determine the hourly production rate, hours expended, the cost per hour,
and the total resulting cost for each fiscal year.
The Wage & Investment Division AUR Program closed:
•   22,752 cases at a rate of 1.96546891 cases an hour and expended 11,576 staff hours at a cost
    of $16.48 an hour for a total cost of $190,772 in FY 2000.
•   34,307 cases at a rate of 1.94762994 cases an hour and expended 17,615 staff hours at a cost
    of $17.48 an hour for a total cost of $307,910 in FY 2001.
•   34,369 cases at a rate of 3.63280095 cases an hour and expended 9,461 staff hours at a cost
    of $18.20 an hour for a total cost of $172,190 in FY 2002.




                                                                                         Page 17
                 The Wage and Investment Division Does Not Have a Reliable System for
              Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                                                      Appendix V


                           Comparison of Automated Underreporter Assessments
                                    and Reconsideration Adjustments

                 Tax Year 1999 with Automated Underreporter (AUR) Reconsideration Adjustments
                             Posted from October 1, 1999, through December 31, 2002
                           Original AUR Assessments                                   AUR Reconsideration Adjustments
        Category Code and                 Closed Cases                 Net Tax           Cases              Tax Change
           Description                  Totals       Adjusted          Change         Totals     %          Total        %
          100 Percent
   01     Mortgage Interest               10,549         2,600           $3,531,496      179   6.9%         $323,099     9.1%
   16     Withholding                   104,982         53,542         $10,861,308     4,569   8.5%        $6,949,343 64.0%
   19     Rents and Royalties             11,581         5,134           $6,089,815      306   6.0%         $561,730     9.2%
   21     Medical Payments                 4,720           803           $1,311,924       42   5.2%         $186,733 14.2%
          Patronage
   26     Dividends                          426           151             $139,950        9   6.0%          $12,800     9.1%
   29     Cancellation of Debt             3,243         1,573         $10,908,136       156   9.9%        $1,472,415 13.5%
   37     Crop Insurance                       40             9             $77,194        1 11.1%              $461     0.6%
          Non-Employment
          Compensation on
   57     Schedule F                       1,002           134             $211,871       12   9.0%          $48,001 22.7%
          Gross Long Term
   60     Care Benefit                         22             6             $13,337        2 33.3%            $7,469 56.0%
          No Reconsideration
    *     Adjustment                         255           117             $222,709
          Adjustment Rate
   **     Less Than 5 Percent         1,449,542       848,262        1,331,043,499    20,931               54,258,835
              Totals                  1,586,362       912,331       $1,364,411,239    26,207   2.9%    $63,820,886       4.7%

Source: Internal Revenue Service Reports and Extracts from the Internal Revenue Service Computer System.


* Total for Category Codes that did not have a reconsideration adjustment.
** Total for Category Codes that had an adjustment rate of less than 5 percent.




                                                                                                               Page 18
         The Wage and Investment Division Does Not Have a Reliable System for
      Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                                                     Appendix VI


                       Automated Underreporter Cases That Resulted in
                       a Reconsideration Adjustment by Category Code

             Tax Year 1999 Automated Underreporter (AUR) Reconsideration Adjustments
                       Posted from October 1, 1999, through December 31, 2002
                                                                                        AUR Reconsideration
                                Category Code                                              Adjustments
  #                                  Description                                            Count         Percentage
 04   Non-Employment Compensation (NEC)                                                         5,926          22.6%
 05   50 Percent Gross Receipts / NEC                                                               844         3.2%
 07   Wages                                                                                     5,313          20.3%
 08   Social Security / Railroad Retirement                                                         923         3.5%
 09   100 Percent Interest or Dividends                                                             474         1.8%
 13   Pension Taxable                                                                           1,597           6.1%
 16   Withholding                                                                               4,569          17.4%
 19   Rents and Royalties                                                                           306         1.2%
 24   Gambling                                                                                      954         3.6%
 27   Prizes and Awards                                                                             393         1.5%
 33   Unemployment Compensation                                                                     529         2.0%
 34   Interest Combinations (not 07, 11, 13, 14)                                                    411         1.6%
 41   Not Categories 02 or 31                                                                   1,009           3.9%
 42   Excess Individual Retirement Account Contribution $150 Tax                                    729         2.8%
 46   Excess Federal Insurance Contribution Act Withholding                                         260         1.0%
 99   No Category Assignment                                                                        371         1.4%
  *   Adjustment Rate Less Than 1 Percent                                                       1,599
                                      Total                                                    26,207

Source: Internal Revenue Service Reports and Extracts from the Internal Revenue Service Computer System.
* Total for Category Codes with a reconsideration adjustment rate of less than 1 percent.




                                                                                                            Page 19
         The Wage and Investment Division Does Not Have a Reliable System for
      Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                                                      Appendix VII


                      Automated Underreporter Cases That Resulted in a
                        Reconsideration Adjustment by Process Code

            Tax Year 1999 Automated Underreporter (AUR) Reconsideration Adjustments
                      Posted from October 1, 1999, through December 31, 2002
                                                                                       AUR Reconsideration
                                Process Code                                              Adjustments
  #                                  Description                                       Count           Percentage
       Adjustment for Withholding or Excess Social Security Tax
 20    Withheld                                                                               4,932         18.8%
 67    Fully Agreed                                                                           4,629         17.7%
 68    Partially Agreed                                                                        121           0.5%
 87    Fully Agreed (Statutory Notice of Deficiency)                                          1,023          3.9%
 88    Partially Agreed (Statutory Notice of Deficiency)                                        18           0.1%
 90    Assessed by Default                                                                   15,394         58.7%
 94    Default Assessments (Revision to Statutory Notice of Deficiency)                         56           0.2%
  *    Adjustment Rate Less Than 0.1 Percent                                                    34
                                     Total                                                   26,207

Source: Internal Revenue Service Reports and Extracts from the Internal Revenue Service Computer System.
* Total for Process Codes with a reconsideration adjustment rate of less than 0.1 percent.




                                                                                                            Page 20
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases

                                                                  Appendix VIII


              Management’s Response to the Draft Report




                                                                         Page 21
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases




                                                                         Page 22
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases




                                                                         Page 23
   The Wage and Investment Division Does Not Have a Reliable System for
Identifying Trends Related to Automated Underreporter Reconsideration Cases




                                                                         Page 24
